No. __________
IN THE

Supreme Court of the United States
In re Joy Garner, individually and on behalf of The Control Group et al.,
Petitioners,

ON PETITION FOR WRIT OF MANDAMUS
TO THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA

CERTIFICATE OF SERVICE
PETITION FOR WRIT OF MANDAMUS

GREGORY J. GLASER
California State Bar No. 226706
4399 Buckboard Drive, #423
Copperopolis, CA 95228
Telephone: (925) 642-6651
Facsimile: (209) 729-4557
greg@gregglaser.com
COUNSEL OF RECORD for Petitioners

RAY L. FLORES II
California State Bar No. 233643
11622 El Camino Real, Suite 100
San Diego, CA 92130
Telephone: (858) 367-0397
Facsimile: (888) 336-4037
rayfloreslaw@gmail.com

CERTIFICATE OF SERVICE
Service on Respondents
I certify that a true and correct copy of the Petition for Writ of
Mandamus and Appendixes were personally delivered on August 26,
2021 to the attorney of record for Respondent in the district court and 9th
Circuit action at the address listed below:
Philip A. Scarborough
Assistant United States Attorney
501 I Street, Suite 10-100
Sacramento, CA 95814
Lead Attorney for Respondent
Delivery of Copy to Trial Judge
A copy of the Petition for Writ of Mandamus and Appendixes
were delivered to the Honorable William B. Shubb of the United States
District Court for the Eastern District of California, by personal delivery to
the courtroom clerk of the Judge on August 26, 2021.
Dated: August 26, 2021

GREGORY J. GLASER
Lead Counsel for Petitioners

